No. _______________________
____________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
____________________________________
JEROME SKEE SMITH,
Petitioner
v.
DARREL VANNOY, WARDEN,
LOUISIANA STATE PENITENTIARY,
Respondent
____________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS,
CASE NO. 19-30261
HAYNES, DUNCAN, AND ENGELHARDT, CIRCUIT JUDGES.
______________________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
________________________________________________________

Rachel I. Conner
Counsel of Record
Law Office of Rachel I. Conner
3015 Magazine Street
New Orleans, LA 70115
(504) 581-9083
Attorney for Jerome Skee Smith

APPENDIX A

Case: 19-30261

Document: 00515782578

Page: 1

Date Filed: 03/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
March 16, 2021

No. 19-30261

Lyle W. Cayce
Clerk

Jerome Skee Smith,
Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:13-CV-3923
Before Haynes, Duncan, and Engelhardt, Circuit Judges.
Per Curiam:*
Jerome Skee Smith was convicted of first-degree murder in 1986. He
was sentenced to life in prison. In this successive § 2254 application, he
challenges his conviction under Brady v. Maryland, 373 U.S. 83 (1963). But
we are unable to reach the merits of his Brady claim because his petition was

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-30261

Document: 00515782578

Page: 2

Date Filed: 03/16/2021

No. 19-30261

untimely. Accordingly, we AFFIRM the district court’s dismissal of the
successive petition.
I.
William Long was shot and killed in the middle of the street outside
his uptown New Orleans bakery on October 29, 1985. Three eyewitnesses—
Thomas Weil and sisters Mioshi and Deseree Thompson—identified the
perpetrator from a photographic lineup as Jerome Skee Smith, a teenager
who lived two blocks from the crime scene. 1 See State v. Smith, 511 So. 2d
1185, 1186–87 (La. Ct. App. 1987).
The prosecution relied entirely on the testimony of these three
eyewitnesses, each of whom placed the shooting around 4:00 in the
afternoon. But Smith proffered an alibi. Two employees of a service station
not far from the bakery testified at trial that Smith and his mother had been
there sometime around 4:00 that afternoon, though they could not say
exactly when, to purchase gas and have a quick maintenance check—in all,
for as long as ten minutes. Id. at 1187. And Smith had a 5:00 appointment at
the Youth Study Center, which was between a 15- and 21-minute drive from
the service station. Id. at 1187–88. But three employees of the Youth Study
Center testified that they saw him there no later than 4:30 and probably
before. Id. In short, Smith’s alibi narrowly confined the window in which he
could have been present at the crime scene and likewise rendered the precise
time when the shooting occurred a matter of critical significance.
Nevertheless, the jury credited the eyewitnesses’ testimony and
convicted Smith of first-degree murder. He was sentenced to life in prison
without benefit of parole, probation, or suspension of sentence. Id. at 1186.

1

Mioshi Thompson’s first name appears throughout the record as “Mioshi,”
“Mioski,” “Myoshi,” and “Mickey.”

2

Case: 19-30261

Document: 00515782578

Page: 3

Date Filed: 03/16/2021

No. 19-30261

Thereafter, the state intermediate appellate court affirmed, and the
Louisiana Supreme Court denied his application for a writ of certiorari. Id.
at 1190; State v. Smith, 519 So. 2d 114 (La. 1988).

Three rounds of

unsuccessful state post-conviction proceedings and an initial § 2254 petition
followed.
In 1997, after his first round of state proceedings, Smith filed a § 2254
petition, reiterating the claims he had previously raised in the state
application.

The district court denied that petition and this court

subsequently denied his request for a certificate of appealability. In 1998, he
filed a second state habeas petition, raising new claims alleging ineffective
assistance of counsel and violations of equal protection. The Louisiana
Supreme Court denied his writ request on March 14, 2003. State v. Smith,
839 So.2d 29 (La. 2003).
Smith filed a third and final state habeas petition on February 20,
2004. The Louisiana Supreme Court ultimately denied relief as to the third
petition on June 24, 2005. Then, on December 18, 2008, he filed “a
supplemental and amended memorandum” in support of the 2004
application. The 2008 filing raised claims that the state’s witnesses had
testified falsely at trial and that prosecutors had withheld additional favorable
and material evidence in the form of police reports, transcribed witness
statements, and an affidavit in support of an arrest warrant. After conducting
hearings, the state trial court denied the application in 2011.

The

intermediate appellate court denied the ensuing writ application, as did the
Louisiana Supreme Court on May 18, 2012.
In January 2013, Smith filed a motion for authorization to file a
successive § 2254 application raising Brady claims.

Smith’s motion

identified evidence turned over by the state after his first § 2254 application
had been denied, evidence that the defense had not previously seen. The

3

Case: 19-30261

Document: 00515782578

Page: 4

Date Filed: 03/16/2021

No. 19-30261

withheld evidence consisted of (1) statements by Thomas Weil and Mioshi
Thompson recorded on the day after the shooting that differed from their
trial testimony; (2) an incident report, application for an arrest warrant, and
police memos, all of which pertained to the time of the shooting; and (3) a 14photograph lineup—which Smith averred contained two photos of him—
that was evidently shown to the witnesses, rather than the eight-picture
lineup that was introduced at trial. This court granted Smith’s motion on
March 11, 2013.
Proceeding pro se, Smith filed the instant § 2254 application on May
22, 2013. The state asserted that the application was untimely. Addressing
that contention, the magistrate judge did not attempt to conclusively
determine when the one-year federal limitations period began. Instead, he
identified only the latest possible point it could have begun—May 18, 2012,
the date the Louisiana Supreme Court denied the final state habeas
application—to determine that the latest it could have expired was May 20,
2013.2 Accordingly, the magistrate judge concluded that Smith’s application
was late by two days, and, finding no statutory or equitable basis for tolling,
recommended dismissing the application as time barred. Smith objected.
The district judge stressed that Smith had been placed on lockdown shortly
after receiving authorization to file his successive petition, preventing access
to his legal materials from May 7, 2013 until the deadline of May 20, 2013.
Thus, the district judge determined that Smith was entitled to equitable
tolling for the two-day delay, declined to dismiss the application as untimely,
and appointed counsel to address the merits of his claims.
But the district court ultimately denied relief, concluding, reluctantly,

2

Under this calculation, the one-year period would ordinarily have expired on May
18, 2013, but because that date fell on a Saturday, the deadline was extended through the
following Monday.

4

Case: 19-30261

Document: 00515782578

Page: 5

Date Filed: 03/16/2021

No. 19-30261

that Smith had failed to satisfy the stringent requirements of 28 U.S.C.
§ 2244(b)(2) for review of successive petitions. Nevertheless, the district
court granted Smith a certificate of appealability as to whether it erred in
dismissing the application, and he timely appealed.
II.
We review a decision to grant equitable tolling for abuse of discretion.
Alexander v. Cockrell, 294 F.3d 626, 628 (5th Cir. 2002). “A district court
abuses its discretion when it makes an error of law or if it bases its decision
on a clearly erroneous assessment of the evidence.” United States v. Wilcox,
631 F.3d 740, 747 (5th Cir. 2011) (internal quotations and citation omitted).
A factual finding is not clearly erroneous if it is plausible when the record is
considered as a whole. United States v. Raney, 633 F.3d 385, 389 (5th Cir.
2011).
III.
We first consider the timeliness of Smith’s petition. Because we
conclude that he did not timely file his petition, we cannot reach the merits
of his claims.
A successive § 2254 application is subject to a one-year limitation
period. 28 U.S.C. § 2244(d)(1)(D). Under certain circumstances, statutory
and equitable tolling may apply. The one-year period is statutorily tolled for
the time that a properly filed application for state collateral relief is pending.
28 U.S.C. § 2244(d)(2). Because the one-year period is not to be construed
as a jurisdictional bar, it may be equitably tolled, but only “in rare and
exceptional circumstances.”3 Davis v. Johnson, 158 F.3d 806, 811 (5th Cir.

3

If unasserted, this limitations period may also be subject to waiver or forfeiture
because it is not an “inflexible” jurisdictional rule. See Holland v. Florida, 560 U.S. 631,

5

Case: 19-30261

Document: 00515782578

Page: 6

Date Filed: 03/16/2021

No. 19-30261

1998). The applicant bears the burden of showing that equitable tolling is
warranted. See Phillips v. Donnelly, 216 F.3d 508, 511 (5th Cir. 2000).
The district court’s analysis finding Smith’s application timely is
flawed in two significant respects. First, it proceeded from an unconsidered
and faulty premise about when the one-year period began to run. The district
court began its analysis with the assumption that the magistrate judge had
already determined, without any objection from the state, that the period
actually began to run on May 18, 2012. That was not so. Rather, the
magistrate judge had expressly declined to reach a determination about when
the period began to run because he reasoned that the petition was untimely
in any event, whether measuring from the latest possible start date or any
time before. Had it attempted to identify the actual start date, the district
court could not have escaped placing it well before 2012. Second, even
assuming arguendo that the clock did begin to run on May 18, 2012, the
district court erred in finding that Smith’s circumstances were sufficiently
extraordinary to entitle him to equitable tolling. We consider each of these
points in turn.
The one-year period begins to run on the date when the underlying
facts of the claim could have been discovered through the exercise of due
diligence. 28 U.S.C. §§ 2244(d)(1)(D). The facts underlying Smith’s claim
consist of the evidentiary materials that were undisclosed to him, and he
became aware of their existence in September 2001. 4 Accordingly, the

645 (2010). Yet here the state has asserted the timeliness issue, preventing our
consideration of an untimely filing that does not warrant equitable tolling.
4

Smith’s counsel conceded at oral argument that Smith knew of the undisclosed
evidence in September 2001. Additionally, Smith averred in his motion for authorization
to file a successive petition that he first discovered the pertinent materials in September
2001. There is no reason to suspect that he could have discovered them before that time.

6

Case: 19-30261

Document: 00515782578

Page: 7

Date Filed: 03/16/2021

No. 19-30261

limitations period began to run then. Much of the time that elapsed after that
was statutorily tolled pursuant to § 2244(d)(2) due to the pendency of state
habeas proceedings. But little difficulty confronts us in accounting for the
passage of more than one year during which no such proceedings were
pending. Over 11 months passed from when the Louisiana Supreme Court
denied the writ request in his second state habeas petition on March 14, 2003
to when he filed his third application for state habeas relief on February 20,
2004. Nearly eight more months elapsed between the time when the
Louisiana Supreme Court denied his writ application in his third state habeas
petition on May 18, 2012 and the time when he sought authorization to file a
successive § 2254 application in this court.5 And approximately two more
months passed from the time this court authorized his successive application
on March 11, 2013 to when he filed his application on May 22, 2013.
Moreover, for none but a small sliver of this time has Smith suggested that
he is entitled to equitable tolling. In sum, we are unable to construct a

5

Notably, the Louisiana Supreme Court initially denied Smith’s 2004 application
on June 24, 2005. Our timeliness analysis assumes arguendo that the “supplemental and
amended memorandum” Smith filed in 2008—which the Louisiana Supreme Court
denied on May 18, 2012—did not constitute a new, fourth state habeas petition but instead
related back to his 2004 petition and continued to toll the limitations period from June 24,
2005 all the way to May 18, 2012. It is not at all clear that Smith warrants such a liberal
assumption. But either way, his successive petition is untimely.
We also note that state proceedings do not toll the one-year period if filed after it
has already run. See e.g., Richards v. Thaler, 710 F.3d 573, 576 (5th Cir. 2013). Thus, absent
our assumption that it related back to the 2004 petition, Smith’s 2008 filing would be
irrelevant for tolling purposes because the limitations period would have already run
anyway.
Nor would Smith’s petition for authorization to file a successive § 2254 petition
have tolled the limitations period because a federal motion is not a state application for
post-conviction relief that triggers tolling under § 2244(d)(2). Duncan v. Walker, 533 U.S.
167, 172 (2001) (holding that a federal filing is not an application for state post-conviction
or other collateral review within the meaning of § 2244(d)(2)).

7

Case: 19-30261

Document: 00515782578

Page: 8

Date Filed: 03/16/2021

No. 19-30261

timeline in which his application could be considered timely.
Furthermore, even assuming arguendo that the district court did
correctly identify the starting point of the limitations period, the successive
petition was only rendered timely by its application of equitable tolling. But
we are unpersuaded that Smith is entitled to equitable tolling.
To show that his situation is among those rare and exceptional
circumstances in which equitable tolling is warranted, Smith must show (1)
that he pursued his rights diligently and (2) that some extraordinary
circumstance stood in his way. Holland v. Florida, 560 U.S. 631, 649 (2010).
Moreover, he must demonstrate a causal relationship between the
extraordinary circumstance and his delay, a showing “that cannot be made if
the petitioner, acting with reasonable diligence, could have filed on time
notwithstanding the extraordinary circumstances.” United States v. Perkins,
481 F. App’x 114, 118 (5th Cir. 2012) (internal quotations and citations
omitted). Smith does not meet these requirements.
First, tolling is not automatic upon a showing of extraordinary
circumstances, and Smith failed to show that he “acted with reasonable
diligence throughout the period he seeks to toll.” Smith v. McGinnis, 208
F.3d 13, 17 (2d Cir. 2000). “We have recognized that a component of the
obligation to pursue rights diligently is not to wait until near a deadline to
make a filing, then seek equitable tolling when something goes awry.”
Schmitt v. Zeller, 354 F. App’x 950, 951–52 (5th Cir. 2009) (citing Johnson v.
Quarterman, 483 F.3d 278, 287–88 (5th Cir. 2007)). Smith does not satisfy
that component obligation.
In other cases, we have held that prisoners who were aware that their
state post-conviction proceedings were no longer pending and yet waited to
file federal habeas petitions between four and six months after the limitation
period began did not exercise reasonable diligence. See Palacios v. Stephens,

8

Case: 19-30261

Document: 00515782578

Page: 9

Date Filed: 03/16/2021

No. 19-30261

723 F.3d 600, 606 (5th Cir. 2013) (collecting cases). There are no bright-line
rules in this context, see id., but this case is analogous to those. Smith’s time
in lockdown and without access to his legal materials comprises a very small
portion of the time he was permitted to pursue his rights. He waited nearly
eight months after his last round of state collateral review to seek
authorization to file a successive habeas petition and, even after obtaining
authorization, another two months passed before he lost access to his legal
materials. Thus, the district court erred in concluding that Smith pursued
his rights diligently.
Second, circumstances cannot be considered extraordinary for
purposes of equitable tolling if, as was apparently the case here, they are
within the petitioner’s control. See Menominee Indian Tribe of Wis. v. United
States, 136 S. Ct. 750, 756 (2016) (holding that the extraordinarycircumstances prong, unlike the diligence prong, “is meant to cover matters
outside [petitioner’s] control”).

Here, the state submitted undisputed

prison disciplinary records and affidavits documenting that Smith was placed
in “administrative segregation” on March 28, 2013 and then transferred to a
maximum-security cell block on May 7, 2013 because he was “caught
committing an aggravated sex offense” in violation of the prison’s rules and
regulations. Smith’s lockdown was thus not a matter outside his control but
a consequence of his own behavior, and it cannot, under these circumstances,
create a basis for equitable tolling.
IV.
We are removed from the tragic events underlying this case by
numerous court proceedings and the span of more than three decades. Yet
none of this is to say we do not find the circumstances of this case deeply
concerning. Confronted with an apparently credible alibi, a jury convicted
Smith of the murder of William Long on nothing more than the testimony of

9

Case: 19-30261

Document: 00515782578

Page: 10

Date Filed: 03/16/2021

No. 19-30261

three eyewitnesses, even though inconsistencies presented at trial created
seemingly reasonable grounds to question the reliability of all three of those
witnesses. But the untimeliness of Smith’s petition precludes us from
probing the merits of his claim. Accordingly, the judgment of the district
court is AFFIRMED.

10

Case: 19-30261

Document: 00515782588

Page: 1

Date Filed: 03/16/2021

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

March 16, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-30261

Smith v. Vannoy
USDC No. 2:13-CV-3923

Enclosed is a copy of the court’s decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41
govern costs, rehearings, and mandates.
5th Cir. R. 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court’s opinion or order.
Please read carefully the Internal Operating Procedures (IOP’s)
following Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion
of when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion
for a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 19-30261

Document: 00515782588

Page: 2

Date Filed: 03/16/2021

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Whitney M. Jett, Deputy Clerk
Enclosure(s)
Mr. Michael Vincent Ambrosia
Ms. Rachel Isabel Conner

